<html>
<title> - ATV SAFETY</title>
<body><pre>[Senate Hearing 110-1072]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-1072
 
                               ATV SAFETY

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER AFFAIRS, INSURANCE, AND AUTOMOTIVE SAFETY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 9, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
39-697                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER AFFAIRS, INSURANCE, AND AUTOMOTIVE SAFETY

MARK L. PRYOR, Arkansas, Chairman    JOHN E. SUNUNU, New Hampshire
JOHN D. ROCKEFELLER IV, West         JOHN McCAIN, Arizona
    Virginia                         TRENT LOTT, Mississippi
BILL NELSON, Florida                 OLYMPIA J. SNOWE, Maine
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 9, 2007......................................     1
Statement of Senator Pryor.......................................     1

                               Witnesses

Murray, David P., Counsel, Yamaha Motor Corporation, U.S.A., 
  Willkie Farr and Gallagher, LLP................................    11
    Prepared statement...........................................    14
Weintraub, Rachel, Director, Product Safety and Senior Counsel, 
  Consumer Federation of America.................................     2
    Prepared statement...........................................     4

                                Appendix

Coleman, Hon. Norm, U.S. Senator from Minnesota, prepared 
  statement......................................................    29


                               ATV SAFETY

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                               U.S. Senate,
  Subcommittee on Consumer Affairs, Insurance, and 
                                 Automotive Safety,
         Committee on Commerce, Science and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor [presiding]: I want to thank our panel for 
being here and I want to certainly thank the staff, as always, 
for doing a great job.
    Today we're going to talk about ATV safety, and before I 
introduce the witnesses, who are two great witnesses, and we 
look forward to hearing from you, let me say that we have a lot 
going on in the Senate today, a lot of hearings, there's a lot 
of floor activity on a judge right now, and some of our 
Senators we think will be here as the hearing progresses, but 
we're not 100 percent sure, because some just don't have 
confirmation on.
    But let me go ahead and say that All-Terrain Vehicle safety 
is a very important topic, this Subcommittee looked at this 
last year. We looked at ATV safety, the history of that, and 
how circumstances have gotten us where we are today.
    For example, in my State of Arkansas, ATVs play a vital 
role in both economic and recreational contexts. It could be 
people out in the hunting woods, or it could be work vehicles 
on the farm, but nonetheless, ATV use is very saturated in our 
State. I know for a number of other Senators who are on the 
Subcommittee, it's true as well.
    The current contingencies and requirements for safety, as 
you all know, are derived from action plans created by the 
industry, and predominantly they're honored solely by domestic 
manufacturers. Recent statistics show that deaths and injuries 
related to ATV use continue to rise, and it's important for the 
Subcommittee to consider the role it can play to assist in the 
reduction of these occurrences.
    Last year we asked the industry groups, and the consumer 
groups to come together, hopefully sit down in, either a 
meeting, or a series of meetings, to build consensus on 
proposed legislation on how to address ATV safety, as we move 
forward.
    I look forward to hearing from the witnesses about the 
results of those meetings, and I hope we can have further 
progress and new developments in the future.
    Finally, I'd like to thank Chairman Stevens for his 
interest in this issue, and the rest of the Committee for their 
involvement. Senator Stevens, of Alaska, who can't be here at 
the moment has talked to me separately, over the last several 
weeks, to talk about how important this is to him, obviously it 
is an issue that touches Alaska, and they have a high number--I 
don't know what that number would be, but a high per capita 
number, certainly, of ATVs in his home state.
    What I'd like to do is introduce our two witnesses, give 
both of you about 5 minutes to make your opening statement, and 
then we'll ask questions.
    First, Ms. Rachel Weintraub, Director of Product Safety and 
Senior Counsel, Consumer Federation of America.
    Ms. Weintraub?

  STATEMENT OF RACHEL WEINTRAUB, DIRECTOR, PRODUCT SAFETY AND 
         SENIOR COUNSEL, CONSUMER FEDERATION OF AMERICA

    Ms. Weintraub. Thank you, Senator Pryor, and thank you for 
the opportunity to speak today.
    I am Rachel Weintraub, Director of Product Safety, and 
Senior Counsel at Consumer Federation of America. CFA is a non-
profit association of 300 consumer groups, with a combined 
membership of over 50 million people.
    CFA was founded in 1968, to advance the consumer's interest 
through advocacy and education. CFA has been concerned about 
All-Terrain Vehicle safety since the 1980s, when three-wheel 
ATVs dominated the market. We opposed the consent decree 
between CPSC and ATV manufacturers in 1988, because it did not 
adequately protect consumers.
    CFA petitioned CPSC in the 1990s, and in 2002, and 
challenged CPSC's abandonment of their ATV rulemaking in the 
1990's. CFA and others prioritized ATV safety, because at least 
136,700 people, including over 40,000 children, suffered 
serious ATV injuries in 2005 alone. Estimated ATV-related 
fatalities reached 767 in 2004. In 2005, ATVs killed at least 
120 children, younger than 16, accounting for 26 percent of all 
fatalities.
    At the June 2006 ATV hearing, Senator Pryor asked the 
testifying parties, including, among others, the American 
Academy of Pediatrics, Consumer Federation of America and 
representatives of the ATV industry to work together to develop 
mutually supported legislation. During the following September, 
CFA and a lawyer for an ATV manufacturer, provided comments to 
each other, and to Senate staff, on an ATV bill being drafted 
by then-Senator Allen, which did not lead to the introduction 
of a broadly supported ATV safety bill.
    This past March, CFA and AAP met with Senate Commerce 
Committee staff, who expressed their desire for CFA and AAP to 
meet with representatives of the ATV industry to find a 
consensus on ATV safety legislation. CFA and AAP agreed--these 
unprecedented meetings consisted of open discussions on the 
draft legislation, and on broader ATV policy issues. These 
meetings were candid, productive, and set the stage for a 
positive working relationship.
    At these meetings, CFA expressed its view that CFA wants to 
thwart a safety threat before it becomes apparent, but 
prioritizes working to solve the documented hazards of children 
riding all adult-sized ATVs. CFA is concerned that efforts to 
deal solely with imported ATVs will have a marginal benefit to 
the health and safety of Americans riding ATVs. The focus of 
ATV safety legislation must be on all ATVs, no matter how 
quickly the import sector may be growing.
    CFA is concerned about legislation that would require all 
ATVs to meet the SVIA/ANSI ATV standard, especially with its 
proposed provisions, the standards are far too weak to curb ATV 
deaths and injuries. These standards are changing the way ATVs 
are categorized, shifting away from engine size, to a system 
based upon speed. No data exists to demonstrate whether 
children could safely operate ATVs at the speed limit 
suggested. The explanations for the speed limits are based on 
consumer preference, not on medical expertise, or safety.
    The draft legislation also proposes to require that the 
manufacturers or importers of ATVs that are sold in the United 
States file ATV action plans with the CPSC. These action plans 
rely on fine-print ads, warning labels, and recommendations, 
enforced at the discretion of manufacturers. This voluntary 
approach, however, is failing to curb the rising tide of ATV 
deaths and injuries. Further, since CPSC has not provided 
compliance or enforcement information of these action plans to 
the public, it's not possible to evaluate the effectiveness of, 
or even compliance with, these agreements.
    CFA provided the following list of policy proposals to be 
concluded in any meaningful ATV safety legislation. One, make 
the ban on the sale of adult-sized ATVs for use for children 
mandatory; two, institute guidelines for Federal lands that 
would prohibit child from riding adult-sized ATVs, require the 
use of helmets, ban passengers, ban riding on paved roads, and 
ban riding at night; three, create an incentive system in 
Federal law for States to pass strong ATV safety laws; four, 
ban the sale of three-wheel ATVs, issue a recall of all of 
those which remain in use; five, codify 90ccs as a threshold 
for adult-sized ATVs; six, require improvements in ATV 
marketing; seven, establish minimum stability requirements for 
ATVs; eight, issue a standard to reduce suspension failures; 
nine, improve ATV safety training; ten, require sale of helmet 
with an ATV; eleven, require CPSC to conduct a study evaluating 
a child's ability to operate vehicles at certain speeds. We 
also requested a GAO study, increase for CPSC funding, 
establish mandatory standards for speed-limiting devices, 
require improvements for brakes, requiring seat belts, roll 
cages, headlights and suggested language for a warning label.
    On our priority issue of banning the sale of ATVs, we did 
not find agreement. However, we did find some agreement on the 
following issues: Federal lands, incentives for States, selling 
helmets with youth models, improvements for marketing and 
training, a CPSC study, a GAO study to--on CPSC's compliance 
efforts, and increasing funding for CPSC's ATV safety 
activities.
    In conclusion, every year, more people--especially 
children--are killed or injured as they ride ATVs. The current 
voluntary approach to safety has allowed these deaths and 
injuries to increase. The draft legislation would merely apply 
a flawed approach to every ATV sold in the United States. The 
voluntary standards could potentially put children at even 
higher risk, by allowing them to operate faster ATVs.
    The CPSC's rulemaking is similarly flawed. This is our 
opportunity to prevent families from losing a loved one, caring 
for a severely injured family member, and incurring the vast 
cost of medical care caused by the use of a recreational 
product--the ATV.
    We urge the Subcommittee to take strong action, to curb the 
well-documented hazards of all ATVs. Thank you.
    [The prepared statement of Ms. Weintraub follows:]

 Prepared Statement of Rachel Weintraub, Director, Product Safety and 
              Senior Counsel, Consumer Federal of America

I. Introduction
    Chairman Pryor, Ranking member Sununu and members of the 
Subcommittee, thank you for the opportunity to speak today and for 
holding this meeting. My name is Rachel Weintraub; I am Director of 
Product Safety and Senior Counsel at Consumer Federation of America 
(CFA). CFA is a non-profit association of 300 consumer groups, with a 
combined membership of more than 50 million people. CFA was founded in 
1968 to advance the consumer's interest through advocacy and education.
    Consumer Federation of America has been deeply concerned about the 
safety of all-terrain vehicles (ATVs) for many years. In fact, CFA has 
been involved in ATV safety issues since the 1980's when three-wheel 
ATVs dominated the market. We opposed the consent decree between CPSC 
and ATV manufacturers in 1988 because we felt that it did not 
adequately protect consumers. CFA petitioned CPSC in the 1990's and 
again in 2002, and legally challenged CPSC's abandonment of their ATV 
rulemaking in the 1990's. The Commission denied our most recent 
petition, CP-02-4/ HP-02-1,\1\ which requested that the U.S. Consumer 
Product Safety Commission ban the sale of adult-size four wheel all-
terrain vehicles ``ATVs'' sold for use by children under sixteen years 
of age. We have testified before the Commission on two occasions in 
support of our petition \2\ and testified before this Subcommittee 
eleven months ago.
---------------------------------------------------------------------------
    \1\ Consumer Federation of America filed the petition on August 20, 
2002 along with the American Academy of Pediatrics, American College of 
Emergency Physicians, Bluewater Network, Danny Foundation for Crib & 
Child Product Safety; Kids in Danger, National Association of 
Orthopaedic Nurses and the U.S. Public Interest Research Group.
    \2\ CFA testified in the June 5, 2003 field hearing in West 
Virginia and in the March 2005 hearing on CPSC staff's briefing 
package.
---------------------------------------------------------------------------
II. ATV Death and Injury Data
    CFA and other groups have been working extensively on ATV safety 
because of the deaths and injuries caused by ATVs. According to the 
latest data from CPSC on ATV deaths and injuries, released in November 
2006,\3\ at least 136,700 people suffered ATV injuries that were 
serious enough to require emergency room treatment in 2005. Since 2001, 
there has been a statistically significant 24 percent increase in 
serious injuries. Children under 16 suffered over 40,000 injuries from 
ATVs, representing 30 percent of all injuries in 2005. Since 2001, 
there has been a statistically significant increase of 18 percent in 
the number of children under 16 seriously injured by ATVs. This age 
group incurred more serious injuries than any other. The estimated 
number of ATV-related fatalities reached 767 in 2004. In 2005, ATVs 
killed at least 120 children younger than 16, accounting for 26 percent 
of all fatalities. Between 1985 and 2005, children under 16 accounted 
for 36 percent of all injuries and 31 percent of all deaths.
---------------------------------------------------------------------------
    \3\ U.S. Consumer Product Safety Commission, 2005 Annual Report on 
All-Terrain Vehicle (ATV)-Related Deaths and Injuries, November 2006. 
available on the web at http://www.cpsc.gov/library/atv2005.pdf.
---------------------------------------------------------------------------
III. Cost to Society
    Our society suffers not only because ATVs cost the lives of almost 
770 people each year in the United States. These deaths and the over 
137,000 ATV injuries incurred each year also cost the Nation 
considerable amounts of money. An analysis of ATV deaths comparing data 
from 1999 to 2003 found that costs associated with ATV deaths have 
steadily increased. Costs associated with ATV deaths of children 
increased from $493 million in 1999 to $723 million in 2003. Costs 
associated with ATV deaths of adults increased from $1,706 million in 
1999 to $2,517 million in 2003.\4\ The vast and tragic costs in both 
human and economic terms compel government action. With appropriate 
Federal and state regulations, lives as well as billions of dollars 
could be saved.
---------------------------------------------------------------------------
    \4\ Helmkamp, Jim, Ph.D., MS, FACE Director, West Virginia 
University Injury Control Research Center, Research Professor, 
Department of Community Medicine West Virginia University, Lawrence, 
Bruce A, Ph.D., Pacific Institute for Research and Evaluation, 
Calverton, Maryland published a letter to the editor with appeared in 
Pediatrics 2007; 119(1):223-225. The authors used the National Highway 
Traffic Administration model for determining the economic impact. This 
incorporates work loss and quality of life components to estimate the 
cost of reported ATV-related fatalities. The assumption was made that 
ATVs are motor vehicles, and in the absence of a specific model for 
ATV-related fatalities, the NHTSA model is used for ATV crashes.
---------------------------------------------------------------------------
IV. Failure of the Current Voluntary Approach
    CFA's recommended policy solutions are premised on the fact that 
the current approach to ATV safety--the industry's self-regulating 
approach--is not working. Not only has self-regulation by the ATV 
industry led to larger and faster ATVs and more children being killed 
and injured, but each year the number of deaths and injuries climb. 
These increases have frequently been by statistically significant 
margins and the Commission has routinely noted in annual reports of ATV 
deaths and injuries that these increases cannot be explained solely by 
rising ATV sales or usage. The failure of the current approach compels 
CPSC, Congress, and state governments to be involved, at least in part, 
through the enforcement of a mandatory standard.
    In 2003, the CPSC issued the latest in a long line of studies 
documenting the dramatic increase in ATV injuries and deaths.\5\ In 
assessing trends between 1997 and 2001, the Commission provided 
compelling evidence that the industry is failing to protect consumers. 
CPSC concluded that:
---------------------------------------------------------------------------
    \5\ Levenson, Mark S., U.S. Consumer Product Safety Commission, 
``All Terrain Vehicle 2001 Injury and Exposure Studies,'' January 2003.

  <bullet> ATV-related injuries requiring emergency room treatment more 
        than doubled, rising to 108 percent from 52,800 to 110,100, 
        while the number of ATVs in use increased by less than 40 
---------------------------------------------------------------------------
        percent.

  <bullet> Injuries suffered by children under 16 increased 66 percent 
        to more than 34,000 in 2001. Meanwhile, the proportion of these 
        children among the driving population grew by 13 percent.

  <bullet> Injuries caused by bigger and more powerful ATVs, defined by 
        the Commission as machines with engines bigger than 400 cc, 
        shot up 567 percent, from 3,662 to 24,437, while the number of 
        these machines in use grew by less than half as much.

  <bullet> Less than 4 percent of injured ATV drivers received formal 
        safety training from a dealer, salesperson or organized 
        training program. This proportion is unchanged since 1997.

  <bullet> More than 40 percent of drivers injured in 2001 stated that 
        their ATV did not have warning labels or they did not know if 
        it did at the time of their accident.

  <bullet> Nearly 90 percent of children under 16 years of age were 
        injured while riding adult-size ATVs, in spite of the 
        industry's voluntary policy not to sell these machines for use 
        by children. This proportion is also unchanged since 1997.

V. Weakness of CPSC Rulemaking
    CFA is profoundly disappointed with CPSC's current rulemaking on 
ATVs. CFA objects to CPSC's proposal to re-categorize ATVs from a 
system based on engine size to a system based upon speed. CPSC provided 
no evidence supporting that children can safely operate ATVs at the 
suggested speed limits. Further, we are concerned that the 
categorization is based on flawed speed limiting devices. Also of deep 
concern to CFA is that categorization based on speed is one-dimensional 
and ignores other critical factors that have a major impact on the safe 
operation of these vehicles, especially as they relate to operation by 
children. The weight and size of the machine alone, as well as in 
relation to the weight of a child, are critically important factors 
that this proposed rule ignores. This rule would allow children to 
operate ATVs that have higher maximum speeds than what is currently 
suggested. No data supports moving in this dangerous direction.
    We also have concerns about the lack of safety data supporting the 
creation of ATVs designed for two riders and the lack of lateral 
stability requirements. CFA fears that this rule will not only fail to 
curb the rising tide of deaths and injuries but could even place 
children even more at risk.

VI. Benefit of a Federal ATV Safety Law

A. Children Should Not Ride Adult-Size ATVs
    The Commission, as well as the American Academy of Pediatrics 
(AAP), the American Academy of Orthopaedic Surgeons (AAOS) and the ATV 
industry's trade association, the Specialty Vehicle Institute of 
America (SVIA), have long-standing policies stating that it is 
inappropriate for children under 16 years old to operate or otherwise 
ride adult-size ATVs. CFA's petition and subsequent policy 
recommendations sought to give CPSC the necessary tools to enforce this 
guideline since no Federal mandatory ATV safety laws currently exist.
    The Commission and experts in child health have concluded that 
children should not ride adult-size ATVs because ATVs are inherently 
difficult to operate for adults and beyond the development capability 
of children to control. However, the Commission's proposed rule and the 
draft voluntary standards fail to consider this complexity.
    While there seems to be almost universal agreement among experts 
that children should not operate or ride adult-size ATVs, no mechanisms 
are in place to ensure that this does not happen. Unfortunately, we 
know that children do ride adult size ATVs and that that too many 
children are getting killed and injured when they drive vehicles that 
are too large, too fast, and too powerful for them.

B. Federal Role in Improving ATV Safety
    Federal regulation barring the sale of certain ATVs for children 
could significantly change legal and other dynamics facing the ATV 
industry, and dealers in particular. When the consent decrees were in 
effect, CPSC reported that compliance was consistently high. Compliance 
dropped dramatically when replaced with a voluntary approach. When the 
legal hammer was removed, dealers appear to have concluded that the 
risks of violating the voluntary standard are outweighed by the 
benefits associated with selling adult-size ATVs in violation of those 
standards. Ongoing monitoring by manufacturers failed to encourage 
widespread and consistent compliance. With a Federal regulation in 
place and stepped up enforcement by CPSC, we believe the legal dynamics 
would be very similar to those that existed under the consent decrees. 
If dealer compliance rises, then sales of adult-size ATVs for use by 
children would decline. Reduction in such sales would indirectly affect 
use, because a smaller number of adult-size ATVs would be available to 
this age group.

VII. Legislative Background
    At the June 2006 hearing, Senator Pryor asked the parties who were 
testifying--including among others, the American Academy of Pediatrics 
(AAP), Consumer Federation of America (CFA) and representatives of the 
ATV industry--to work together to develop mutually supported 
legislation. During the following September, CFA and a lawyer for an 
ATV manufacturer provided comments to each other and to Senate staff on 
an ATV bill being drafted by then-Senator Allen. Those communications 
were narrowly tailored to discussions about the draft bill and did not 
lead to the introduction of a broadly supported ATV safety bill.
    On March 1, 2007, CFA and AAP were invited to meet with Senate 
Commerce Committee staff to discuss the Senate staff's desire for CFA 
and AAP to meet with representatives of the all-terrain vehicle (ATV) 
industry to find a consensus on ATV safety legislation. CFA and AAP 
agreed to meet with ATV manufacturer representatives.
    Our first meeting took place on March 14, 2007. At this meeting all 
parties openly presented their perspectives on the current draft 
legislation as well as on broader ATV policy issues. The first meeting 
was candid, productive and set the stage for a positive working 
relationship. We met again on March 26, 2007.

VIII. CFA's Position on ATV Import Legislation
    At these meetings, CFA expressed its view on the draft legislation 
which would require all ATVs sold in the United States to meet 
voluntary safety standards and to have an ATV Action Plan on file with 
the Consumer Product Safety Commission. Since all of the major domestic 
manufacturers already have such Action Plans, this bill is aimed at 
creating a level playing field with imported ATVs that are coming in 
from China and other nations. While it is clear that the large ATV 
manufacturers fear the rising percentage of less expensive, imported 
ATVs as an economic threat, there has been little evidence put forth 
indicating what percentage of ATV deaths and injuries are caused by 
these imported ATVs. CFA would like to thwart a safety threat before it 
becomes apparent but prioritizes working to solve the documented 
hazards of children riding adult-size ATVs.
    In 2006, CFA reviewed ATV recalls undertaken by CPSC. We found 
that:

  <bullet> For ATV recalls listing the country of manufacture, 20 were 
        manufactured in the United States; 3 were manufactured in 
        Canada; 3 were manufactured in Japan; 1 was manufactured in 
        Taiwan; and 1 was manufactured in China.

  <bullet> 91.7 percent of ATVs recalled involved units manufactured by 
        major ATV manufacturers who are members of the Specialty 
        Vehicle Institute of America (SVIA).\6\
---------------------------------------------------------------------------
    \6\ Polaris joined SVIA in September of 2005.

  <bullet> In 2005 alone, 94 percent (16 out of 17) of ATVs recalled 
---------------------------------------------------------------------------
        were manufactured by major ATV manufacturers.

    Thus, CFA is concerned that efforts to deal solely with imported 
ATVs will have a marginal benefit to the health and safety of Americans 
riding ATVs. The focus of ATV safety legislation must be on all ATVs, 
not merely those imported into the United States, no matter how quickly 
that sector may be growing. CFA is alarmed that the draft legislation 
does not seek to solve any of the existing ATV safety problems caused 
by the major ATV manufacturers. Thus, while seeking to prevent the sale 
of unsafe imported ATVs is a goal with which both CFA and AAP could 
concur, it cannot be the sole focus of any legislative proposal that 
purports to address ``ATV safety.''

A. Weakness of SVIA/ANSI Voluntary Standard
    CFA also has deep reservations about legislation that would require 
all ATVs to meet the SVIA/ANSI ATV standard. Especially with its 
proposed revisions, the standards are far too weak to curb ATV deaths 
and injuries. While the latest draft language of the bill makes 
compliance with the existing standard mandatory, the legislation allows 
for CPSC to make future versions of the standard the substantive 
requirements underlying the legislation. CFA has opposed these 
revisions and has provided extensive comments to the SVIA/ANSI ATV 
Standard Developer.
    Our opposition is premised on the fact that these standards are 
changing the way ATVs have been traditionally categorized, shifting 
away from engine size to a system based upon speed. The SVIA/ANSI draft 
standard proposes to alter the age/size guidelines by creating a system 
that limits the maximum speeds of ATVs intended for use by children 
under the age of 16. The draft standard proposes a Category T 
(Transition Model) ATV, intended for children 14 or older with adult 
supervision, or by an operator 16 or older, with a maximum speed of 38 
mph; Category Y-12 + ATVs, intended for children 12 or older, with a 
maximum speed of 30 mph; Category Y-10 + ATV, intended for use by 
children age 10 or older, with a maximum speed of 30 mph; and Category 
Y6 + ATVs, intended for children age 6 years old, with a maximum speed 
of 15 mph.
    No evidence supports the development of the above-described 
categories. No data exists to demonstrate whether children could safely 
operate ATVs at the speed limits suggested. Further, the explanations 
for the speed limits are based upon consumer preference, not medical 
expertise or safety. In addition, the speed limits will be maintained 
by speed-limiting devices that we understand have a history of failure. 
Finally, we are concerned that the draft standard's new categorization 
does not consider the implications of the weight of an ATV--a key 
factor in many devastating injuries when ATVs topple or roll over.

B. Weakness of ATV Action Plans
    The draft legislation also proposes to require that the 
manufacturers or importers of all ATVs that are sold in the United 
States file ``ATV Action Plans'' with the CPSC. These Action Plans are 
a continuation of the substantive provisions of a court-approved 
consent decree between ATV manufacturers and the CPSC, which forced the 
industry to end production of highly dangerous three-wheel ATVs, and 
which expired in 1998. Since that time, major ATV manufacturers have 
been operating under voluntary ``Action Plans.'' These Action Plans 
rely on fine print in ads, warning labels, and recommendations enforced 
at the discretion of manufacturers. This voluntary approach, however, 
is failing to curb the rising tide of ATV deaths and injuries. Further, 
the CPSC has not provided compliance or enforcement information of 
these ``Action Plans'' to the public, thus not allowing for the 
opportunity to evaluate the effectiveness of, or even compliance with, 
these agreements.

IX. Results of Meetings between AAP, CFA and ATV Manufacturers
    During the meetings among representatives of CFA, AAP, and ATV 
manufacturers, the parties not only expressed concern or support with 
the draft legislation, but CFA and AAP also provided a list of policies 
that should be included in any meaningful ATV safety legislation. This 
list of policies provided the framework for these meetings. The AAP's 
list of recommendations includes:

    1. Children under 16 should not operate ATVs.

  <bullet> A driver's license should be required to operate an ATV.

    2. Alcohol use by operators of ATVs should be prohibited, with zero 
tolerance among 16- to 20-year-old operators.

  <bullet> Zero tolerance policies for underage ATV operators.

    3. ATV use should be banned on paved roads.

  <bullet> Use of ATVs should be allowed only on designated, well-
        maintained trails.

    4. Appropriate protective gear should be required to operate an 
ATV.

  <bullet> ATV operators should be required to wear a helmet.

    5. Carrying passengers on an ATV should be prohibited.
    6. ATVs should not be operated before sunrise or after sunset.
    7. Manufacturers should redesign ATVs to improve safety.
    8. National ban on children under 16 operating ATVs on Federal 
lands.
    9. Other restrictions related to children under 16 operating ATVs 
on Federal lands.

    In addition to AAP's recommendations for ATV safety, AAP made clear 
that their policies firmly oppose children under 16 riding any size 
ATV.
    CFA also provided all parties with recommendations to be included 
in a legislative proposal. Included in the list below are CFA's 
recommendations and reasoning for the provision as well as the 
industry's response:

    1. Make the ban on the sale of adult size ATVs for use for children 
mandatory. Give manufacturers the tools to hold dealers accountable for 
known sales of adult-size ATVs for children. CFA's official position is 
that children under 16 should not ride adult-sized ATVs. This position 
is shared by CPSC and industry. This is an effort to codify industry's 
golden rules and to give tools to manufacturers to hold dealers 
responsible when they knowingly sell adult-size ATVs to children.
    The ATV manufacturers philosophically agreed that no child under 
age 16 should operate an adult machine. However, they would not agree 
to a ban on sale due to concerns regarding enforcement, potential 
liability for dealers who acted in good faith, and lack of control over 
parents' choices regarding their children's riding habits.
    2. Institute guidelines for Federal lands that:

        a. Prohibit children from riding adult size ATVs

        b. Require the use of helmets

        c. Ban passengers

        d. Ban riding on paved roads

        e. Ban riding at night

    These provisions essentially mirror SVIA's model law--including 
provisions to require helmets, and ban passengers, riding on paved 
roads, riding at night, and children on adult ATVs. These behaviors are 
all already included on warning labels on ATVs. Federal lands offer a 
unique opportunity for the Federal Government to institute best 
practices.
    The ATV manufacturers were amenable to drafting language on all 
provisions except passengers, where they wished to allow passengers on 
two-up ATVs. They agreed to explore requiring CPSC to partner with USDA 
(USFS) and Interior (NPS, FWS, etc.) to develop regulations.
    3. Create a incentive system in Federal law for states to pass 
strong ATV safety laws that ban children from riding adult size ATVs, 
ban passengers, ban use on paved roads and at night, and require 
helmets and safety gear. CFA noted that incentives could be a 
``carrot'' (increased funds if laws are passed) or a ``stick'' (reduced 
funds if they are not).
    ATV manufacturers are amenable to exploring potential incentives 
for states to pass restrictions along the lines of the SVIA model law.
    4. Ban the sale of three wheel ATVs. Issue a recall for all those 
which remain in use. Three wheelers are still causing 10 percent of ATV 
injuries and have been documented to be even more unstable and unsafe 
than 4-wheelers.
    ATV manufacturers agreed to ban sale of three-wheeled ATVs. 
Domestic manufacturers have not produced them for many years. However, 
ATV manufacturers refused to agree to a recall. The industry position 
is still that three-wheeled ATVs are not inherently unsafe.
    5. Codify 90ccs as the threshold for adult size ATVs. CFA is 
particularly concerned that the voluntary standard and CPSC rulemaking 
are moving away from engine size as the classification basis for youth 
versus adult-size ATVs. CFA is concerned that this new categorization 
will lead to more children on larger, faster ATVs. CFA views this as 
critical to safety and views transitional ATVs as a cause of potential 
increases in deaths and injuries. CFA also argues that there is no 
basis in safety for speed limits of transitional and youth models.
    On this issue, there is a fundamental disagreement between the 
parties. Industry believes a set of criteria (engine size, fit, top 
speed, etc.) is a better yardstick. Industry is responding to their 
view of what the market wants: kids are riding adult size ATVs because 
they seek more speed and power. The transitional ATVs are a response to 
this consumer demand.
    6. Require improvements in ATV marketing, particularly on the 
presentation of safety information:

        a. set size limits for the font of safety information

        b. set guidelines for placement on pages

        c. limit marketing to children based on speed and power

    Current marketing and advertising hides safety information in small 
font and in hard-to-access locations in advertisements. Safety 
information must be readable and more prominent. Riders should not be 
shown undertaking unsafe behaviors; children should not be marketed to 
using prohibited conduct, speed or power.
    ATV manufacturers expressed a willingness to discuss options, but 
wished to be sure that any changes would apply to all manufacturers, 
not a subset. They expressed their willingness to discuss giving CPSC 
the authority to set standards on ATV marketing to children.
    7. Establish minimum stability requirements for ATVs. Require 
addition of a lateral stability test and improvements to the pitch 
stability equation by requiring a higher pitch stability coefficient. 
The current pitch stability computation should be abandoned. Stability 
issues, such as those involved in causing rollovers, contribute to 45 
percent of injuries, according to a CPSC examination of incidents from 
CPSC's 2001 injury study. Yet the voluntary standard does not include a 
lateral stability test. CPSC has not been able to conduct research due 
to limited funds. This is an issue of critical importance that has been 
overlooked.
    The ATV manufacturers are opposed to this proposal. They argue that 
the issue is too variable to set useful requirements or standards.
    8. Issue a standard to reduce suspension failures. Suspension 
failures are a basis for a large number of ATV recalls by numerous 
manufacturers in recent years. Even if quality assurance is a problem, 
as CPSC and manufacturers claim, this should be prevented by better 
standard.
    ATV manufacturers oppose this proposal. They argue that such 
failures are usually due to quality assurance issues (e.g., failure of 
materials) not design problems.
    9. Improve standards for ATV training and requirements to make 
training free and geographically available. According to a CPSC study, 
less than 4 percent of ATV purchasers take ATV training courses. Some 
anecdotal evidence suggests ATV trainings are not substantive and are 
located too far away from most buyers for realistic use.
    ATV manufacturers expressed a willingness to discuss options, but 
were not sure of possibilities. They discussed current cash rebates and 
data on why training does not occur, including a high ``no-show'' rate. 
A number of states require children to have certification. ATV 
manufacturers also discussed adding this to model standards under 
proposals for standards in Federal lands.
    10. Require sale of helmet with ATV. Helmet usage could likely 
reduce severity of injuries associated with head trauma.
    ATV manufacturers stated that any helmet proposal must be 
restricted to children. They discussed the possibility of covering 
helmet usage under proposals for standards on public lands.
    11. Require CPSC to conduct a study evaluating a child's ability to 
operate vehicle up to 38 mph and conduct an analysis of the safety 
implications of operating an ATV at 30 and 38 mph. This proposal is 
aimed at providing data to counter the trend toward faster machines for 
youth. Both ATV industry and CPSC have set speed limitations for youth 
and transitional models without evidence justifying operability by a 
child or safety consequences.
    ATV manufacturers were amenable to having a study, but would like 
CPSC to have broad authority to develop and tailor parameters. They do 
not wish to specify ages, speeds, etc. in legislation.
    12. Request GAO studies analyzing CPSC compliance efforts on the 
ATV Voluntary Action Plans; actual costs to society of ATV deaths and 
injuries; and an analysis of enforcement mechanisms to ensure 
compliance with existing state laws and the potential for enforcement 
of a Federal law. CPSC has not made their compliance efforts publicly 
available, but inclusion in a Commissioner's statement implies 
compliance rates have dropped. CFA wrote a letter to CPSC's General 
Counsel requesting this data but has not received any information. This 
information is important to document realities of market compliance 
with voluntary system and effectiveness of current system. No broad-
based studies document the cost to society of ATV deaths and injuries.
    ATV manufacturers were open to a GAO study. They would like the 
study to include benefits of ATV usage (e.g., economic benefits) as 
well.
    13. Increase funding for CPSC's ATV safety efforts--specifically 
for enforcement and monitoring of dealer compliance. Given CPSC's 
limited resources, the Agency needs additional funds to work on ATV 
compliance and regulatory efforts.
    Industry representatives agreed.
    14. Establish mandatory standards for speed-limiting devices, 
including making them impervious to tampering or adjustment by 
consumers. Current CPSC and industry proposals for youth and 
transitional vehicles depend upon use of speed-limiting devices that 
have a high failure rate and can be tampered with easily by youth. The 
industry has no standard for these devices.
    ATV manufacturers would likely oppose this proposal. Industry 
representatives debated whether to provide for dealerships to be the 
sole entity with the ability to adjust speed Governors and decided that 
parents should have that control. The ANSI standard has performance 
specification for Governors that suffices.
    15. Require improvements to service brake performance. Brake 
problems were the basis of a large number of ATV recalls in recent 
years. The consequences of brake failure include death or serious 
injury. Such consistent failures, even if caused by quality assurance 
problems, could be prevented by a standard.
    ATV manufacturers oppose this proposal. They argue that such 
failures are usually due to quality assurance issues (e.g., failure of 
materials) not design problems.
    16. Require seatbelts. Seatbelts would decrease severity of injury 
in crashes and rollovers.
    ATV manufacturers oppose this proposal. Industry data shows 
seatbelts would cause more injuries in some circumstances.
    17. Require roll-cages. Roll bars would decrease severity of injury 
in crashes and rollovers.
    ATV manufacturers oppose this proposal. Industry data shows roll 
bars would cause more injuries in some circumstances.
    18. Require headlights or running lights on all ATVs to improve 
visibility. There was discussion of whether lights could be bright 
enough to improve visibility without encouraging night riding.
    ATV manufacturers were not certain of their support for this 
proposal. Current standards prohibit headlamps on youth ATVs to 
discourage nighttime riding. The proposed revised SVIA/ANSI standard 
would permit (not require) headlamps on youth models.
    19. The following language should appear on warning labels for all 
ATVs, ``Even with ATV experience, youths have immature judgment and 
should never drive an ATV that is too large or too fast for them to 
operate. Children die and are seriously injured when they operate ATVs 
that are too large and too powerful for them.'' This language best 
reflects reality of consequence of children riding adult size ATVs and 
would provide more effective warning to parents of consequences of 
children's operation of adult-size ATVs.
    ATV manufacturers oppose this proposal. This language reportedly 
proposed tested poorly among parents, some of whom found it 
``offensive'' since it referred to immature judgment among youth. They 
also stated that language was too broad. The differences with CPSC-
mandated language could be problematic.
    Thus, on our priority issue of banning the sale of adult size ATVs 
for use for children, we do not have agreement. We do have some basic 
philosophical agreement on the following issues: safety standards for 
Federal lands; incentives for states to pass strong ATV safety 
legislation; possible agreement on selling helmets with youth model 
ATVs; improvements to marketing and training; requiring CPSC to conduct 
a study of a child's ability to operate an ATV at various speeds; 
requesting a GAO study on CPSC's compliance efforts and increasing 
funding for CPSC's ATV safety activities.
X. Role for States in Conjunction with Federal Role
    We recognize that CPSC does not have the authority to take every 
action necessary to solve the full scope of the problems currently 
caused by ATVs. While CPSC can ban the sale of adult-size ATVs for use 
by children under 16, we urge CPSC and industry to support state 
efforts to set licensing and rider training requirements, prohibit 
riders from carrying passengers, and require ATV riders to wear helmets 
and other protective equipment. We also believe that, with the Federal 
and state governments taking strong action and providing more 
information to consumers, parental responsibility will increase as 
well.
XI. Conclusion
    Each and every year, more people, especially children, are killed 
or injured as they ride ATVs. The current voluntary approach to safety 
has allowed these deaths and injuries not only to continue but to 
increase. Every year, hundreds of families have to deal with the loss 
of a loved one, face caring for a severely injured family member, and 
incur the vast costs of medical care caused by the use of a 
recreational product: the all-terrain vehicle. We urge this 
Subcommittee to take strong action to curb the well documented hazards 
of all-terrain vehicles.

    Senator Pryor. Thank you.
    Mr. David Murray, partner, Wilkie, Farr & Gallagher, 
outside counsel to Yamaha Motor Corporation.
    Now, let me say this, before you get started, I told you we 
were kind of busy around here? They just called a vote, and I 
have to leave in, say, 10 minutes. So, right after you finish 
you--5 or 10 minutes--as soon as you finish your opening 
statement, I'll run and vote, and then I'll, we'll come back 
and reconvene. Go ahead.

             STATEMENT OF DAVID P. MURRAY, COUNSEL,

               YAMAHA MOTOR CORPORATION, U.S.A.,

                WILLKIE FARR AND GALLAGHER, LLP

    Mr. Murray. Thank you.
    Good afternoon, Mr. Chairman, members of the Subcommittee. 
My name is David Murray, I'm a member of Willkie Farr & 
Gallagher, outside counsel to Yamaha. I've been involved in ATV 
matters for over 20 years, including the 1987 settlement of the 
Federal Government lawsuit that resulted in 10-year consent 
decrees ending the sale of new three-wheel ATVs, and governing 
the marketing and sale of four-wheel ATVs.
    My wife and I have three boys, ages 9 to 14, I'm very 
pleased to have them here today, we ride ATVs together, as a 
family, and they're quite interested in this hearing.
    I'm appearing on behalf of the major ATV companies, 
including Arctic Cat, BRP, Honda, Kawasaki, Polaris, Suzuki and 
Yamaha. I want to thank the Subcommittee for its ongoing 
interest in ATV safety, and for bringing the Consumer 
Federation of America, the American Academy of Pediatrics, and 
the companies together to discuss this important issue. To my 
knowledge, it's the first time that representatives of the 
three groups have sat down at the same table.
    We found many areas of common ground, and while we have 
agreed to disagree on some topics, all of the discussions were 
in good faith, and very constructive.
    Millions of Americans, including my family, safely operate 
and enjoy ATVs for a wide range of recreational and utility 
purposes. There are more than 7.65 million ATVs in use around 
the country, and the number is growing. In 2006 alone, new 
vehicle sales topped 1.15 million units.
    The draft ATV safety bill that the parties have been 
discussing with Subcommittee staff is urgently needed to 
address fundamental changes in the industry, and to protect 
American consumers.
    Last June, the Subcommittee held an initial hearing on 
compliance with ATV standards. A representative of the U.S. 
Consumer Product Safety Commission testified that, while the 
major ATV companies comply with these standards, a significant 
number of new entrants--primarily from China and Taiwan--are 
selling ATVs that do not. The majority of these non-complying 
units are targeted to American children, and they're being sold 
over the Internet, and delivered directly to homes, or in big-
box retail stores, and other non-traditional retail outlets.
    The Industry's trade association, the Specialty Vehicle 
Institute of America, also submitted an engineering study of 
new-entrant ATVs, conducted by two former CPSC officials. The 
engineers examined four ATVs that were manufactured in China, 
and marketed for use by children under 16. All four Chinese 
ATVs failed to comply with critical provisions of the industry 
standards, and three of the four ATVs had such serious flaws, 
that the engineers recommended an immediate recall under the 
Consumer Product Safety Act. Just last week, the CPSC announced 
a recall of one of the units for numerous safety violations.
    The Subcommittee also heard testimony on the ATV action 
plans that the major companies negotiated with CPSC in 1998. 
These action plans--as Senator Pryor pointed out--continue the 
core regulatory components of the Federal consent decrees. 
Under the plans, each company has agreed, one, to offer free, 
hands-on training to all new ATV purchasers and qualifying 
family members, plus cash, or other incentives, for taking the 
course.
    Two, to restrict the marketing and sale of ATVs to children 
under 16 to models of 90cc engine displacement, or less.
    Three, to conduct annual, undercover investigations of 
their dealers for compliance with the youth ATV sales 
restrictions.
    And, four, to sponsor comprehensive safety information 
programs, including at the point of purchase, through our trade 
association, and in public schools, using the Weekly Reader, 
and other media.
    American companies, such as Arctic Cat, and John Deere, and 
a Canadian company, BRP, signed on to the same ATV action plans 
when they subsequently entered the U.S. market. But, as CPSC 
testified last year, virtually none of the new-entrant 
companies from China or Taiwan have agreed to do so, despite 
repeated requests by the agency.
    Many of these ATVs are being sold by new entrants, they're 
poorly manufactured, and they come with no offer of training, 
and little or no safety information, or product support. We've 
also supplied the Subcommittee, CFA, and the Academy with 
recent advertisements from some of these companies, promoting 
ATVs as large as 250cc with top speeds of 65 miles per hour, 
for children as young as 12, and ATVs as large as 110cc with 
top speeds of 45 miles per hour, for children as young as 7.
    Over the past 5 years, we've given CPSC copies of similar 
ads, engineering studies, and other information about new-
entrant ATVs. But, as CPSC testified last June, because the 
current industry standards and action plans are voluntary, it 
is difficult and time-consuming for the agency to take 
enforcement action against new entrants under the CPSA. Indeed, 
it took CPSC nearly a year to recall only one of the four 
Chinese ATVs examined by this subcommittee last June.
    During the same 5 years, new-entrant ATV sales in the U.S. 
have grown dramatically, from a few percent of the market in 
2002, to nearly 35 percent of the market, in 2006. Power 
Products Marketing, a Minneapolis-based research and business 
consulting firm, has tracked new entrant sales since 2000. The 
firm issued a report, just this week, showing that new-entrant 
ATV sales doubled in the last year, growing from approximately 
260,000 units in 2005, to nearly 400,000 units in 2006, or one-
third of the market. Estimated 2007 sales will likely top one-
half million units.
    Since our hearing last June, new entrants have continued to 
flood the U.S. market with hundreds of thousands of substandard 
ATVs. Despite good intentions, the CPSC has been unable to take 
any enforcement action against most of these companies. These 
substandard ATVs pose unnecessary risks to U.S. consumers, and 
undermine the longstanding safety efforts of CPSC, consumer 
advocates and the major companies.
    Appropriate Federal legislation is urgently needed to 
address this situation. The draft legislation we've discussed 
would require all ATV companies--whether domestic or foreign--
to adhere to the same basic industry standards, and to provide 
adequate training, safety information, and product support 
under CPSC-approved action plans. It would also preserve the 
agency's ability to adopt mandatory standards for ATVs under 
its existing regulatory authority, and most importantly, it 
would give CPSC the tools to enforce the standards--including 
the ability to impose fines on companies that violate them--and 
the authority to work with Customs, to keep non-compliant 
products from entering the stream of commerce. The Act is fair, 
balanced, and should be enacted as soon as possible.
    Senator Pryor. Mr. Murray?
    Mr. Murray. Yes, sir.
    Senator Pryor. I hate to cut you off there, but let me go 
run and vote, we'll go into a 5 to 10-minute recess here, but I 
just need to get over there and vote before my time runs out.
    We'll be back in about 5 or 10 minutes.
    Mr. Murray. Yes.
    Senator Pryor. Thank you.
    Mr. Murray. Thank you.
    [Recess]
    Senator Pryor. Let's reconvene and I'm sorry I had to cut 
you off there Mr. Murray. Had you finished your statement?
    Mr. Murray. Yes I had, Senator, other than to just thank 
the Subcommittee again for its interest in this draft 
legislation, and its sponsorship of our meeting with CFA and 
the Academy.
    [The prepared statement of Mr. Murray follows:]

     Prepared Statement of David P. Murray, Counsel, Yamaha Motor 
          Corporation, U.S.A., Willkie Farr and Gallagher, LLP

    Good afternoon Mr. Chairman and members of the Subcommittee. My 
name is David Murray. I am a member of Willkie Farr & Gallagher LLP and 
outside counsel to Yamaha Motor Corporation, U.S.A. I have been 
involved in ATV matters for over 20 years, including the 1987 
settlement of the Federal Government's lawsuit that resulted in 10 year 
consent decrees ending the sale of new three-wheel ATVs and governing 
the marketing and sale of four-wheel ATVs. My wife and I also have 
three boys, ages 9 to 14, who are here today. We enjoy riding ATVs as a 
family.
    On behalf of the major ATV companies,\1\ I want to thank the 
Subcommittee for its ongoing interest in ATV safety. I also want to 
thank the Subcommittee for bringing the Consumer Federation of America, 
the American Academy of Pediatrics, and the Companies together to 
discuss this important issue. To my knowledge, it is the first time 
that representatives of the three groups have sat down at the same 
table. We found many areas of common ground. And while we ``agreed to 
disagree'' on some topics, all of the discussions were in good faith 
and very constructive. Based on these efforts, we hope to continue to 
work with CFA, the Academy, and other interested parties to increase 
consumer awareness of the potential risks associated with ATV use, 
especially by children.
---------------------------------------------------------------------------
    \1\ The major ATV Companies include American Honda Motor Co., Inc., 
American Suzuki Motor Corporation, Arctic Cat Inc., Bombardier 
Recreational Products, Inc., Kawasaki Motors Corp., U.S.A., Polaris 
Industries Inc., and Yamaha Motor Corporation, U.S.A.
---------------------------------------------------------------------------
    The draft bill that the parties have been discussing with the 
Subcommittee staff would be a critical step forward in promoting ATV 
safety. Millions of Americans, including my family, safely operate and 
enjoy ATVs for a wide range of recreational and utility purposes. There 
are more than 7.6 million ATVs in use around the country, and the 
number is growing. In 2006 alone, new vehicle sales topped 1.15 
million.
    Last June, this Subcommittee held an initial hearing on compliance 
with ATV safety standards. A representative of the U.S. Consumer 
Product Safety Commission testified that, while the major ATV Companies 
comply with the industry safety standards, a significant number of new 
entrants--primarily from China and Taiwan--are selling ATVs that fail 
these standards.\2\ The majority of these non-complying units are 
targeted to American children and are being sold over the Internet and 
delivered directly to homes, or in ``big box'' retail stores and other 
non-traditional outlets.\3\ The industry's trade association, the 
Specialty Vehicle Institute of America, likewise submitted an 
engineering study of new entrant ATVs conducted by two former CPSC 
officials with more than 55 years' combined experience at the agency. 
The engineers examined four ATVs that were manufactured in China and 
marketed for use by children under 16. All four Chinese ATVs failed to 
comply with critical provisions of the industry standards. And three of 
the four ATVs had such serious flaws that the engineers recommended an 
immediate recall under the Consumer Product Safety Act.\4\ Just last 
week, the CPSC announced a recall of one of these units for inadequate 
stop engine switches, tire pressure gauges, tire labeling, and a 
failure to meet other basic safety requirements.\5\
---------------------------------------------------------------------------
    \2\ Annexed as Exhibit 1 are relevant excerpts of the testimony of 
Elizabeth Leland, Project Manager, ATV Safety Review Team, U.S. 
Consumer Product Safety Commission (June 6, 2006).
    \3\ See ``Sales of Non-Traditional Brand ATVs Continue Rapid Growth 
in 2006,'' by Power Products Marketing (May 2007) (annexed as Exhibit 
2).
    \4\ A copy of the Marchica & Deppa Engineering Report is annexed as 
Exhibit 3.
    \5\ A copy of the May 3, 2007 Recall Alert issued by the U.S. 
Consumer Product Safety Commission is annexed as Exhibit 4.
---------------------------------------------------------------------------
    The Subcommittee also heard testimony on the ATV Action Plans that 
the major companies negotiated with CPSC in 1998. These Action Plans 
continue the major regulatory components of the Federal consent 
decrees. Under the plans, each company has agreed:

  <bullet> to offer free hands-on training to all new ATV purchasers 
        and qualifying

  <bullet> family members, plus cash or other incentives for taking the 
        course;

  <bullet> to restrict the marketing and sale of ATVs to children under 
        16 to models of 90cc engine displacement or less;

  <bullet> to conduct annual undercover investigations of their dealers 
        for compliance with the youth ATV sales restrictions; and

  <bullet> to sponsor comprehensive safety information programs, both 
        at point-ofpurchase, through SVIA, and in public schools 
        through the Weekly Reader organization and other media.\6\
---------------------------------------------------------------------------
    \6\ A copy of Yamaha's approved ATV Action Plan is annexed as 
Exhibit 5. It is representative of the Action Plans that other major 
ATV Companies negotiated with the U.S. Consumer Product Safety 
Commission.

    American companies, such as Arctic Cat and John Deere, and a 
Canadian company, BRP, signed on to the same ATV Action Plans when they 
subsequently entered the U.S. market. But as CPSC testified last year, 
virtually none of the new entrant companies from China or Taiwan have 
agreed to do so, despite repeated requests from the agency.\7\ Many of 
the ATVs being sold by these new entrants are not only poorly 
manufactured, but they come with no offer of training and little or no 
safety information or product support. We have also supplied the 
Subcommittee, CFA, and the Academy with recent advertisements from 
these new entrants, which are promoting:
---------------------------------------------------------------------------
    \7\ See testimony of Ms. Elizabeth Leland (annexed as Exhibit 1).

  <bullet> ATVs as large as 250cc, with top speeds of 65 mph, for 
---------------------------------------------------------------------------
        children as young as 12; and

  <bullet> ATVs as large as 110cc, with top speeds of 45 mph, for 
        children as young as 7.\8\
---------------------------------------------------------------------------
    \8\ Representative examples of new entrant ATV advertising 
targeting children under 16 are annexed as Exhibit 6.

    Over the past 5 years, we have given CPSC copies of similar ads, 
engineering studies, and other information about new entrant ATVs. As 
CPSC testified last June, because the current industry safety standards 
and Action Plans are voluntary, it is difficult and time-consuming for 
the agency to take enforcement action against new entrants under the 
CPSA.\9\ Indeed, it took CPSC nearly a year to recall only one of the 
four new entrant ATV models examined at the June hearing, despite the 
engineering study and evidence of defects provided by SVIA.
---------------------------------------------------------------------------
    \9\ See testimony of Ms. Elizabeth Leland (annexed as Exhibit 1).
---------------------------------------------------------------------------
    During the same 5 years, new entrant ATV sales in the U.S. have 
grown dramatically, from a few percent of the market in 2002 to nearly 
35 percent of the market in 2006. In fact, it turns out that the sales 
chart that SVIA provided to the Subcommittee last June seriously 
underestimated new entrant ATV sales for 2006. Power Products 
Marketing, a Minneapolis-based research and business consulting firm, 
has tracked new entrant sales for nearly 10 years. The firm issued a 
report this week showing that new entrant ATV sales doubled in the last 
year, growing from approximately 260,000 units in 2005 to nearly 
400,000 units in 2006--or one-third of the market. Estimated 2007 sales 
will likely top one-half million units. The following sales chart 
depicts this rapid growth: \10\
---------------------------------------------------------------------------
    \10\ The chart is based on the market sales report annexed as 
Exhibit 2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In other words, since the last time we met, new entrants have 
continued to flood the U.S. market with hundreds of thousands of 
substandard ATVs. Despite good intentions, the CPSC has been unable to 
take any significant enforcement action against this rising tide. These 
substandard ATVs pose unnecessary risks to U.S. consumers and undermine 
the longstanding safety efforts of CPSC, consumer advocates, and the 
major companies. The major ATV Companies believe that appropriate 
legislation is urgently needed to address this situation.
    The draft ``All-Terrain Vehicles Standards and Compliance Act'' 
would require all ATV companies, whether domestic or foreign, to adhere 
to the same basic industry standards and to provide adequate training, 
safety information, and product support under CPSC-approved Action 
Plans. The Act would also preserve the CPSC's ability to adopt other 
mandatory safety standards for ATVs pursuant to its existing regulatory 
authority. Most importantly, the Act would give CPSC the tools to 
enforce these standards, including (1) the ability to impose fines on 
companies that violate them and (2) the authority to work with Customs 
to keep non-compliant products from entering the stream of commerce. 
The Act is fair, balanced, and should be enacted as soon as possible.
    The major ATV companies have also supported revisions to the draft 
legislation, in response to issues raised by CFA and the Academy. Some 
of these are reflected in the current draft and others are outlined in 
the position statements filed with the Subcommittee.\11\ In other 
cases, we agree with the goals of CFA and the Academy, but we are 
concerned that their legislative suggestions may fall outside of this 
Subcommittee's jurisdiction, be infeasible or unworkable, or delay 
enactment of the bill, which is so urgently needed. Finally, even where 
we have ``agreed to disagree'' on some legislative suggestions, the 
major ATV companies have benefited from this process and look forward 
to continuing to work with CFA, the Academy, and other interested 
parties on areas of common ground.
---------------------------------------------------------------------------
    \11\ Copies of the written submissions are annexed as Exhibit 7.
---------------------------------------------------------------------------
    On behalf of the companies, I want to thank the Subcommittee again 
for its interest in this draft legislation and its sponsorship of our 
meetings with CFA and the Academy. I look forward to your questions.
    (The exhibits referred to are maintained in the Committee files.)

    Senator Pryor. Well, thank you. And like I said, I 
appreciate you all meeting together, and we have a great staff 
here and we're all eager to work with you to see if we can come 
up with some resolution here that's a win/win for everybody.
    I would like to visit with both of you here for just a 
minute about your meetings. I guess, Ms. Weintraub, you said 
that the meetings were candid and productive, which is great, 
but is there, is there still room for common ground or are we 
at irreconcilable differences on the rest of the topics that 
you all discussed?
    Ms. Weintraub. Well, I think there definitely is room for 
more discussion. We came to agreement--at least general 
philosophical agreement--about a number of issues. So I think, 
our thinking was that we would provide all the information to 
the staff and then leave it up to staff to tell us what the 
next steps were.
    But as I listed before, there are a number of issues that 
we did come to agreement. On some of the most important issues 
for CFA, we did not come to agreement. So, I'm not in a 
position yet to say where we'd be on something even if it were 
to take all of those issues because there's still room, we are 
not at the point at all where we have irreconcilable 
differences that we can't pursue.
    Senator Pryor. And Mr. Murray, what about your thoughts on 
irreconcilable differences or----
    Mr. Murray. Well----
    Senator Pryor .--still room to discuss?
    Mr. Murray. No, I'd like to start with the positive, 
because we have supported some revisions to the draft 
legislation that reflect issues raised by CFA and the Academy 
and in the position statements that we've submitted to the 
Subcommittee, we've also outlined some areas where we do have 
agreement.
    There are certainly some areas where we agree in principle, 
but we're not sure that the proposals fall within the 
Subcommittee's jurisdiction or would be feasible. And, bottom-
line, our concern is that this year alone there will be over a 
half million non-compliant ATVs imported into the U.S. So, we 
feel that the core components of the bill need to be enacted 
urgently.
    And so we're very willing to continue to work with CFA, and 
the Academy and other interested parties on areas of common 
ground. We simply don't want to slow down this bill and getting 
it enacted.
    Senator Pryor. OK. Let me ask you, if I may, and I'll 
direct these to you, Mr. Murray. I'm not trying to put you on 
the hot seat, but Ms. Weintraub in her opening statement listed 
out a few areas that they would like to see included in 
legislation. The first one was children under 16 should be 
required to operate, should be required to have a driver's 
license when they operate an ATV. Does the company or the 
industry have a position on that?
    Mr. Murray. We support model State legislation that 
includes a training requirement and a training certification 
requirement. A number of States have enacted that law, and 
require that children who operate on State lands be able to 
produce evidence of their certification. So, that's an area 
where we are already actively working with the States to enact 
that type of legislation.
    Senator Pryor. And under that model act, there, they get 
some sort of certificate when they've completed the training 
course?
    Mr. Murray. That's correct.
    Senator Pryor. And so, that's what you support. Not a 
State-issued driver's license, but a certificate.
    Mr. Murray. A certificate that demonstrates that they've 
taken an ATV safety training course. The course that we sponsor 
is about a 6-hour course. It includes both hands-on riding 
experience as well as some classroom-type instruction. It's 
done often around a picnic table, because you're out in areas 
where you can operate the vehicles.
    Senator Pryor. By the way, does either your company or the 
industry have an age limit in which you think someone of that 
age or younger should not be allowed to drive an ATV? Do you 
all have an age limit?
    Mr. Murray. Yes, our voluntary standard specifies that the 
smallest units, the Y6 units, are for ages six and above and 
they're speed restricted. They come from the factory at 10 
miles per hour and can be adjusted by parents with the 
specialized tool up to 15, but no more than that.
    Senator Pryor. And, if it's not a Y6, do you have a minimum 
age there for, like a 90cc or anything?
    Mr. Murray. Currently the, what's called the Y12 model for 
ages 12 to 15, is restricted to a top speed of 30 miles per 
hour. And, that's a performance-based restriction that is in 
the ANSI voluntary standard, the industry standard. We've also 
agreed, Senator, in our action plans that we negotiated with 
the CPSC not to market ATVs larger than 90cc engine 
displacement for anyone younger than 16.
    Senator Pryor. OK. So, like on your Y12, I guess when I see 
that title, Y12, I think it's for 12 years old and up, is 
that----
    Mr. Murray. That's correct.
    Senator Pryor. OK. In other words, so you think it's OK for 
12 year olds and older to drive a Y12?
    Mr. Murray. On properly sized units that are speed 
restricted.
    Senator Pryor. OK. And let me just ask about zero-tolerance 
on alcohol use for drivers. Do you all have a position on that?
    Mr. Murray. Absolutely. Our main on-product label has an 
icon that shows no alcohol, drugs when you operate this 
vehicle. That's also part of our general safety instructions, 
it's in our DVDs, it's emphasized in our hands-on training 
program, and all of our safety literature.
    Senator Pryor. And on paved roads, that's another one of 
their issues. Do you all have a position on----
    Mr. Murray. We recommend against operating ATVs on paved 
roads. These are off-road vehicles.
    Senator Pryor. And, do you do that in the safety video or 
in the owner's manual or on stickers on the vehicle or all of 
the above?
    Mr. Murray. All of the above. If you were to take a look at 
our main ATV label, again, there's an icon right up at the very 
top that has a slash through. It's a road, a slash that says 
``Never operate on paved roads.''
    Senator Pryor. Ms. Weintraub, let me ask you on the paved 
road issue. Is it your position or your organization's position 
that they should never be allowed on paved roads? Or that there 
should be warning labels and that the manufacturer should 
recommend that they not be allowed?
    Ms. Weintraub. We believe that ATVs should not be driven on 
paved roads.
    Senator Pryor. At all?
    Ms. Weintraub. At all.
    Senator Pryor. OK. Let me ask, I assume that protective 
gear, both of you all agree on that. What about, Mr. Murray, 
carrying passengers. I assume the industry position be as, if 
an ATV's not designed for passengers, you would say no 
passengers.
    Mr. Murray. That's correct. And, that's been our consistent 
message. There are some units available on the market today 
that are designed for an operator and a passenger, but for 
those that are single-operator vehicles, again, we have on-
product labels specific to the passenger warning and it's also 
reiterated in the main label. So that both the operator of the 
vehicle can see it, and then there's a label that's back where 
a passenger might mount the unit so that the passenger can see, 
independently, that they shouldn't be doing that.
    Senator Pryor. And, Ms. Weintraub's organization also said 
that ATVs should not be operated before sunrise or after 
sunset. What's the industry position on that?
    Mr. Murray. We recommend against children under 16 
operating ATVs after sunset and, in fact, the current industry 
standard prohibits having headlights on youth models, 
specifically for that purpose.
    Senator Pryor. OK.
    Mr. Murray. Adult-sized ATVs that have headlights on them, 
we have warnings and instructions in our owner's manuals about 
the extra caution that should be taken if you find yourself out 
on a trail and it starts to get darker. You need to slow down, 
you need to be extra cautious in getting back to whatever your 
home base is.
    Senator Pryor. OK. I will say this, just on the headlight 
issue, for people who use them for hunting. A lot of times you 
go out before the sun comes up and get yourself positioned. So 
anyway, we can talk about that further.
    Let's see, looking through some of these other guidelines--
--
    Ms. Weintraub, you mentioned something about Federal lands. 
You think there ought to be a set of prohibitions or 
requirements on Federal lands.
    Ms. Weintraub. Right. Well, given the various rules of 
jurisdiction, the Federal Government does not have jurisdiction 
broadly to, to enact some of these regulations across the 
board. But, the Federal Government, obviously, does have 
jurisdiction over Federal lands. So, our thinking is that 
Federal land should be a paradigm of ATV safety.
    Senator Pryor. OK.
    Ms. Weintraub. So, that was, our recommendation. And we 
have a number of details about what we think should be in such 
a standard for Federal lands, many of which, you just stated 
before.
    Senator Pryor. OK. Ms. Weintraub, let me ask you now about 
three-wheel ATVs, as we call them, three-wheelers.
    Ms. Weintraub. Yes.
    Senator Pryor. Your organization takes the position that 
the sale of these should just be banned?
    Ms. Weintraub. Right.
    Senator Pryor. Should there be some sort of recall, or some 
sort of mechanism to try to get those out of the marketplace 
completely? And, if so, what should that look like?
    Ms. Weintraub. We believe there should be. As I'm sure you 
well know, the part of the consent decree that CFA felt was the 
strongest aspect was the provision that banned the production 
of new three-wheel ATVs. But there still remain three-wheelers 
in the used market. And recently, there have been some 
importers who may be bringing in three-wheel ATVs, as well.
    Senator Pryor. So, there are some new three-wheelers 
hitting the market.
    Ms. Weintraub. There may be. There's been some advertising. 
I don't know if they have been seen in the market, but the 
older three-wheelers make up about 10 percent, still, of 
injuries. So, even though they have been banned from new 
production since the late 1980s, they're still causing problems 
and we're seeing significant impact of them in the death and 
injury data. So, what we believe is a good solution is not only 
to make that ban permanent, but also to recall the ATVs, which 
we think should have been recalled at the time of the consent 
decree, to get those three-wheelers off the market.
    Senator Pryor. And in your view, how would the recall work? 
Would the manufacturers have to refund some money, would they 
give them credit for the purchase of a four-wheeler? I mean, 
how does that work?
    Ms. Weintraub. I think it depends. We're open to seeing how 
the details would work. The Consumer Product Safety Commission 
has mandatory and voluntary, recall authority, and it rarely 
uses its mandatory recall authority. So, really to be the most 
expeditious, the manufacturers would have to agree to a recall.
    Senator Pryor. OK. Mr. Murray, if you know, do you have an 
estimate on three-wheelers still out there in the U.S. that 
people are using?
    Mr. Murray. It's a shrinking percentage. I know that and I 
know that there are some folks out there that love their three-
wheelers and they're nursing them along. They haven't been sold 
as new products in this country for two decades. I can 
certainly find out that information and submit it to the 
record.
    [The information previously referred to follows:]

                                 ______
                                 
    The last survey of the three-wheel ATV population was conducted by 
Heiden Associates in 2001. The survey found that the number of three-
wheel ATVs had declined forty percent (40 percent) between 1997 and 
2001, from 1.25 million to 750,000. Assuming the same rate of decline, 
it can be estimated that the number of three-wheel ATVs has further 
decreased from 675,000 in 2002 to 405,000 in 2006. There would be only 
approximately 360,000 three-wheel ATVs in use by the end of this year.
    According to the U.S. Consumer Product Safety Commission's most 
recent annual report of ATV-related accidents and fatalities (issued in 
December 2006), there were an estimated thirty-three (33) fatalities 
associated with three-wheel ATVs in 2004--the most recent year for 
which CPSC has provided such estimates. These 33 fatalities involving 
three-wheel ATVs in turn represent only 4 percent (4 percent) of all 
CPSC's estimated ATV-related fatalities in 2004. Moreover, this 
percentage can be expected to decline in subsequent years in view of 
the continuing decrease in the number of three-wheel ATVs in use.

    Senator Pryor. I'm curious, she mentioned that the 
accidents or the injuries in ATVs, they make up about 10 
percent of the stats there. I'm just curious if, I would think 
it would be, that 10 percent would be disproportionately high 
as compared to how many are actually out there. Because, you 
know, my understanding of a three-wheeler is it's much less 
stable than a four-wheel ATV. I'd love for you to supplement 
the record on that. We'll leave the record open for a few days.
    Now, Ms. Weintraub, let me ask you about your 90cc 
threshold for adult-size ATV recommendation. Does that mean 
that an ATV will not be sold to or marketed to an adult that is 
smaller than 90cc? Tell me how that works?
    Ms. Weintraub. No, well, first of all, 90ccs is currently 
the demarcation for an adult-sized or youth-sized model. 
Anything over 90ccs is considered an adult-sized ATV. And, 
according to the voluntary standards, including the voluntary 
action plans, adult-sized ATVs, which are defined using the 
90cc--greater than 90cc threshold--should not be sold for use 
for children.
    But there are two broad problems. The first problem is that 
we're seeing, anecdotally, that there's not widespread 
compliance. Over the past years we've worked with a number of 
reporters who've done undercover surveys in different cities 
and both of them found that nine out of ten dealers would 
knowingly sell an adult-sized ATV for use for children. So, 
that's one part of the problem, and that's why we filed a 
petition with the Consumer Product Safety Commission. 
Basically, what we want to do is codify this 90cc threshold to 
make it mandatory, to give CPSC, as well as potentially, 
manufacturers, the tools to enforce that dealers not knowingly 
sell adult-sized ATVs for use for children.
    The second problem, however, is that both the voluntary 
standards in their draft form, as well as the Consumer Product 
Safety Commission are moving away from this 90cc demarcation. 
They're both, the CPSC rulemaking, as well as the ANSI 
standard, are moving into categorization based upon speed for 
certain ages and we have many concerns about that. Mostly that 
it will be putting the industry and the Government's imprimatur 
on children riding even faster ATVs than they're allowed to 
now. And, there's no evidence supporting the fact that children 
could safely operate ATVs at the speeds given in these 
categorizations. Rather, the justification has been solely 
based on consumer preference.
    Senator Pryor. OK. Mr. Murray, let me ask you about one of 
the recommendations from Ms. Weintraub's organization to 
establish minimum stability requirements for ATVs. Does that 
cause a problem with the industry?
    Mr. Murray. Well, it does in so far as these vehicles are 
rider active. I don't know, Senator, if you've ridden one, but 
you shift your weight and you're taught to do that, that's part 
of our training course. And, as a consequence, we spent a lot 
of time with the CPSC back in the late 1980s and the early 
1990s trying to see if we could develop stability measurement 
that would be applicable to these products. And, we weren't 
able to do that.
    But at the same time, the Commission has twice studied the 
incidence of rollovers involving the products and they've not 
been able to find a correlation between stability and 
accidents. And so, even in their most recent review of ATVs, 
the Commission is not suggesting that there's any issue with 
the lateral stability of the ATVs, or any need for the adoption 
of a lateral stability measurement.
    One of the benefits of this proposed bill though, Senator, 
is that if with product innovation and if with further research 
it turned out that there was a basis to have a valid 
measurement of, or stability coefficient for ATVs, the 
Commission would be able to take any industry standards that 
are developed in that area and incorporate them as part of the 
mandatory rule. So, we think it's better left to the standard-
setting process. We haven't been able to crack that nut so far, 
but if we ever did, this bill would have the flexibility to 
allow it to become part of a mandatory rule.
    Senator Pryor. OK. Mr. Murray, I think it was you in your 
opening statement, mentioned Internet sales.
    Mr. Murray. Yes.
    Senator Pryor. Especially from these imported ATVs? Do you 
think the Federal Government should either ban or regulate 
Internet sales?
    Mr. Murray. Not at all, but I do think that by enacting the 
draft legislation the Congress would be able to codify that, if 
you're a company selling ATVs in the United States, you have to 
follow age restrictions that are appropriate for children in 
this country. And, you have to comply with those, whatever 
retail outlet or distribution channel you're using.
    Senator Pryor. OK. Ms. Weintraub, do you have a view of 
Internet sales? Should we either ban them or regulate them?
    Ms. Weintraub. I certainly think there are some inherent 
problems with complying with even the current ATV action plans 
in selling them on the Internet. For example, how do you know 
what age rider will be using them? I mean, obviously, there are 
problems in brick and mortar stores as well, but there 
definitely seems to be more barriers to finding out the age of 
the rider.
    Further, there's other information, there are other forms 
that are currently being used that would have to be signed and 
back and forth, so I think it would complicate things. And, I 
think it could potentially make or irresponsible buying, even 
more possible.
    Senator Pryor. OK. Let me ask you, Ms. Weintraub, this 
graph that they put up about the increasing number and market 
share of imports, Do you accept those numbers?
    Ms. Weintraub. I don't know. I saw the report, I don't 
know, I'm not familiar with the entity that came up with them, 
so I'm not in a position to agree or disagree. The numbers seem 
high.
    And as I said, we certainly don't want to allow a problem 
in terms, of deaths and injuries with these import issues to 
bubble up. We'd like to thwart the potential hazards before 
they occur, but we also want to actually deal with the 
documented problems caused by all ATVs.
    Senator Pryor. OK. Let me make sure I understand your 
position though, Ms. Weintraub. On the safety requirements for 
imported ATVs, do you think that the imported ATVs should meet 
the same safety standards that the domestically produced ATVs 
meet?
    Ms. Weintraub. We do, but it's a little bit complicated for 
us, because we have concerns with the current standards.
    Senator Pryor. Right.
    Ms. Weintraub. Yes.
    Senator Pryor. I understand, but at a minimum you think 
that they, all the imported ones should meet the same standards 
as the domestic.
    Ms. Weintraub. Sure. If we could improve the action plans, 
improve the voluntary standards, yes, certainly there should be 
a level playing field. Certainly.
    Senator Pryor. In other words, back when the consent decree 
was entered into, your organization was not completely 
supportive of that consent decree, you felt like it fell short 
in some areas? But, with that said, there were some good things 
in it also?
    Ms. Weintraub. Yes, especially the ban on production of new 
three-wheelers, yes.
    Senator Pryor. Now you've also, in your testimony, I think 
you mentioned dealer compliance. As I understand it, the dealer 
compliance has gone down since the sun-setting of the consent 
decree. I think that's correct, at least that's my 
understanding. How can we improve dealer compliance, from your 
standpoint, Ms. Weintraub?
    Ms. Weintraub. Well, we think that the best solution to 
dealer compliance is, instead of it being voluntary, making it 
mandatory, so that there will be consequences for lack of 
compliance. It will give manufacturers tools to make sure that 
their dealers are not knowingly selling the wrong-sized ATV for 
children and posing them at greater risk.
    Senator Pryor. In other words, not to put words in your 
mouth, but you'd like to see a Federal law, with some teeth in 
it, that requires the dealers to do certain things.
    Ms. Weintraub. Yes.
    Senator Pryor. Is that fair to say?
    Mr. Murray, let me ask you. As I understand the statistics, 
you've seen--we have seen in this country an increase in the 
number of accidents and injuries and deaths related to ATVs. As 
I understand the statistics, that is not purely based on an 
increased number of ATVs in the U.S. today. What other factors 
might play into that?
    Mr. Murray. Well, let me speak to that because we certainly 
feel that any ATV injury is one too many, but there has been a 
dramatic growth in the number of ATVs in use. And, despite this 
increase, the number of ATV injuries involving children under 
16 decreased 10 percent from 2004 to 2005 and that's according 
to the CPSC's latest ATV report.
    Senator Pryor. So, does that mean in 1 year, it----
    Mr. Murray. Yes, there was a 10 percent drop in the number 
of ATV-related accidents involving children under 16.
    Senator Pryor. Do you think that's part of a trend of do 
you think that was----
    Mr. Murray. I sure hope so.
    Senator Pryor.--one you're. What would cause that trend if 
they are going down in the younger?
    Mr. Murray. I think the concerted efforts of the CPSC, and 
the industry, to continue to raise awareness about the risks of 
children operating adult-size ATVs. Ninety percent, over 90 
percent of injuries to kids are occurring when they're 
operating adult-size ATVs. And so, through consumer advocate 
groups like CFA and the Academy and the industry getting that 
message out, I think people are hearing it, and they're 
responding to it, and we're starting to see it in the accident 
data, which is very encouraging.
    It's still too high and so we want to keep those efforts 
up. And we're very concerned that when you have one-third--and 
rapidly growing--of the market that is totally unregulated. I'm 
not aware of any other instance where two-thirds of a market is 
regulated and following actions that are good for consumer 
safety, and one-third is just completely unregulated. So, we've 
got to stem that problem and this bill would do that.
    Senator Pryor. Now you mentioned that the numbers have gone 
down 10 percent, for the younger ages, but what about in the 
general population?
    Mr. Murray. When you look at the adjusted population, the 
injury risk per 10,000 vehicles has declined almost 10 percent 
since 2001 and it's at its lowest point since 1998.
    Senator Pryor. Ms. Weintraub, do you agree with that?
    Ms. Weintraub. Well, statistics can be interpreted in many 
different ways. According to the CPSC, the raw numbers, there's 
been an increase across the board in terms of people who've 
been injured as well as people who have been killed. And, 
there's been statistically significant increases since 2001, 
for example, in terms of injuries, there's been a 24 percent 
increase, so from 2001 to the most recent data.
    Since 2001, there's been a statistically significant 
increase of 18 percent in the number of children under 16 
seriously injured by ATVs. So, this problem continues to be 
epidemic, families' lives are irreparably and tragically 
affected by ATV deaths and injuries. And this number, these 
numbers are a cause of great concern, which is why CFA, 
American Academy of Pediatrics, and other organizations are 
working so hard to try to stem this tide.
    We see the statistic that 90 percent of children who are 
injured on ATVs that are--they're actually injured on adult-
size ATVs. We see that statistic as showing that the current 
system, the voluntary approach, is not working. And in looking 
at that statistic, our analysis is, well, what can we do to 
keep kids off of adult-size ATVs? And, it seems that laws with 
consequences would help that. Unfortunately, what the industry 
and the CPSC are doing, saying, ``Well, let's change the 
definition of ATVs, and let's put kids on ATVs that actually go 
even faster.''
    Senator Pryor. OK.
    Mr. Murray. Senator, could I comment on that?
    Senator Pryor. Yes.
    Mr. Murray. We're looking at what's being called a 
Transitional Model ATV, but we're doing it at the request of 
CPSC. CPSC asked industry and other interested parties to 
consider whether the current 90cc restriction should be 
abandoned. Because we're finding, and we're hearing from 
parents, we're hearing from kids, we're hearing from dealers 
that when you get to be 14 or 15 years old, the 90cc unit is 
just too small. And, kids are not willing to operate it, they 
want to be on the adult-sized ATV. We don't want them on adult-
sized ATVs.
    And so, what we've done is we hired a human factors firm to 
work with our engineers, they've studied this issue, we've 
submitted this information to the CPSC, and what's being 
proposed would be a transitional model that would be a little 
bit larger, better size and fit for an adolescent. It would be 
set at 20 miles per hour coming from the factory and it would 
require a specialized tool that parents could use, over time, 
to increase the speed to 30 miles an hour, and ultimately to 38 
miles an hour, to allow kids to learn how to operate them, to 
demonstrate their skills and their judgment. None of that's 
going to replace the need for adult supervision, but the CPSC 
is studying that proposal and I'm sure they're going to get 
some other proposals because this is a tough issue.
    This bill would preserve the ability of CPSC ultimately to 
decide, in its expert judgment, whether this is a good idea or 
not. And if it's a good idea, then they would be able to 
incorporate that as part of the mandatory rule.
    Senator Pryor. OK. Mr. Murray, when you were giving the 
statistics a few minutes ago----
    Mr. Murray. Yes.
    Senator Pryor.--you quantified what you said by a number of 
incidents or injuries per 10,000 ATVs. In other words, is it 
your contention that even though what Ms. Weintraub says is 
true about the raw data, when you put it in the context of the 
number of ATVs in the U.S. today, you're saying your statistics 
show that the numbers are actually going down? Not the raw 
numbers, but----
    Mr. Murray. Right. These aren't my statistics, they're the 
CPSC's, and it comes from the CPSC's 2005 Annual Report. It 
shows that in, between 2004 and 2005 the number of accidents 
involving children under 16 dropped 10 percent, so that's just 
the raw number. The second figure that I referred to, was when 
you do adjust to population and so you're evening that out and 
you're looking at per 10,000 ATVs in use. The accident rate has 
also fallen 10 percent between 1999 and 2005.
    Senator Pryor. OK. Well, we'll look at those statistics 
and----
    Mr. Murray. And, I'll be happy to submit a copy of this 
CPSC report for the record if it would be helpful.
    Senator Pryor. That'd be great. We probably have it, but 
we'll make sure if we don't we'll request it.
    As you said, Ms. Weintraub, with statistics, you know, they 
can----
    Ms. Weintraub. Well, actually all of our data is from the 
same document, so it's just what we're highlighting.
    Senator Pryor. Well, it's the way you interpret it, as 
well.
    Ms. Weintraub. Right.
    Senator Pryor. I mean, it's kind of what you want to focus 
on and----
    Ms. Weintraub. Exactly.
    Senator Pryor .--how you interpret that. Let me ask a 
couple more questions here, then I'm going to let you go.
    Mr. Murray, beyond the legislation that would require the 
so-called level playing field, where the imports have to comply 
with the same, it sounds like you are willing to discuss other 
requirements in law and it sounds to me like you're, you know, 
both of you have said that you're willing to try to find common 
ground on a variety of other issues. I'm not trying to put 
words in your mouth, but is that fair?
    Mr. Murray. It is fair. For example, Senator, after our 
discussions with CFA--I believe it was last November or 
December--we agreed to include a provision in the draft bill 
that would ban sales of new three-wheel ATVs. We also specified 
some additional safety requirements for certain ATV components 
and characteristics. And then, as we've outlined in our 
position statements, there are a number of areas where we have 
agreement in principle. If it makes sense to include something 
in this bill and the Committee believes it's within its 
jurisdiction, we continue to be willing to work on it, but 
we're concerned that, we were here a year ago. In that 
timeframe, another 400,000 noncompliant ATVs were imported into 
the U.S. and this year we're going to reach over half a 
million. So we don't want good ideas to sacrifice the urgent 
need for getting this legislation enacted, and enacted quickly.
    Senator Pryor. Let me ask you about your voluntary action 
plans?
    Mr. Murray. Yes.
    Senator Pryor. Are those consistent across the industry or 
does one manufacturer do one thing and another do another, and 
vice versa?
    Mr. Murray. The domestic and foreign companies that have 
signed onto these action plans have signed on to substantially 
the same requirements. And these were all published in the 
Federal Register by the CPSC. The companies, in fact, were 
commended by the agency for having kept these provisions in 
place. And the problem we've had, Senator, as you know, is so 
many new companies have come in and, despite repeated efforts 
by the agency to get them to sign on to these same action 
plans, they have refused to do so. And this bill would make it 
a Federal requirement, that they get with the program. And, I 
think any responsible manufacturer who wants to participate in 
this market has no excuse for not doing so.
    Senator Pryor. OK. Mr. Murray, I know that you have a sense 
of urgency about trying to get some legislation done, but from 
your standpoint, would more meetings with the consumer groups, 
would that be beneficial? Is there value in doing that? Do you 
feel that with--and I'm not saying more time like months and 
months--but just more time together as you all are trying to 
work through issues, do you think you could find more common 
ground?
    Mr. Murray. I think there are certainly areas where we can 
continue to work together. I think that as to this bill, we've 
now given the Subcommittee the areas where we've reached 
agreement or where we have reached an impasse, but the issue 
of, for example, Federal lands. We think that the safe 
practices of ATV use should be followed whether you're on 
public land, private land, State land, Federal land. That's an 
area where, if we can work with CFA and the Academy and other 
interested parties, with Interior or with the Department of 
Agriculture, we're prepared to do that.
    There's a lot that needs to be done at the State level. For 
example, Oklahoma just passed a law that requires kids 
operating ATVs to wear helmets. We all agree that needs to be 
done. Our industry has been the leading advocate of State ATV 
safety legislation. We've been encouraged that CFA is also 
supportive of that. That's an area where we can continue to 
meet and work together.
    This bill is so clearly needed. One-third of this industry 
is totally unregulated and the enactment period under the draft 
that we've been discussing is a 5-month window. So, by the time 
that happens, Senator, another half million of these 
noncompliant ATVs are going to be in the United States.
    Senator Pryor. Ms. Weintraub, do you think there's benefit 
in you all sitting down further, and discussing further, or do 
you think you kind of reached the point of diminishing returns?
    Ms. Weintraub. Yes, I think there is--although I think the 
documents that your Committee has received very much articulate 
the positions of both sides: there are areas where we agree. 
And I think what would be beneficial would be to work out those 
areas and come up with language. Because we have, agreed on 
principle, philosophically, so getting to that next stage would 
be productive.
    I just want to mention also, that we certainly feel urgency 
as well. We look, not necessarily in terms of the market, but 
in terms of the number of children and, adults as well, who are 
injured and killed. And we fear that if this train is moving 
and does not cover all ATVs, then we've missed a golden 
opportunity. So, we want to make sure that any legislation 
deals with the broader issues as well.
    Senator Pryor. Great. Well listen, I want to thank both of 
you all for coming. This has been very informative and even 
though we had a vote in the middle of this and a lot of 
committees going on, we'll definitely share this information 
with other Committee members, and many of their staffs are here 
represented right now.
    What we'll do is, we'll leave the record open for 2 weeks. 
It's possible some Senators would like to do some follow-up 
questions with you, so don't be surprised if you get some 
written questions.
    But, I want to thank you all for attending today, and being 
here. And again, this has been informative and helpful for the 
Subcommittee. And, if there's nothing further, I'll go ahead 
and adjourn us.
    Thank you very much.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]

                            A P P E N D I X

             Prepared Statement of the Hon. Norm Coleman, 
                      U.S. Senator from Minnesota

    I would like to thank Chairman Pryor for convening today's hearing 
on ATV safety issues and I appreciate the opportunity to provide the 
Committee with a Minnesota perspective on this matter.
    Minnesota is home to two innovative and competitive manufacturers 
of ATVs--Arctic Cat and Polaris. To date, these companies have been 
pioneers in the development of various ATV safety features and have 
made numerous design changes to enhance the safety performance of their 
machines. In my discussions with the leadership of both companies I 
have been impressed with their commitment to protecting the safety and 
security of ATV riders, especially youth riders.
    It is for this reason that I have been a strong advocate of 
legislation that requires that all ATVs comply with a baseline safety 
standard. For years, Minnesota's ATV manufacturers have promoted and 
implemented an extensive array of safety initiatives to reduce injuries 
and deaths on ATVs, including the offer of incentives to consumers to 
take hands-on safety training. These initiatives have been thoroughly 
vetted and analyzed by the Consumer Product Safety Commission (CPSC).
    Minnesota's manufacturers have been forced to compete against a 
surge of imports from South Korea, Taiwan and China that have not been 
subject to any regulatory oversight. These ``new entrants'' have 
capitalized on the explosion of consumer support for ATVs by selling 
directly to the consumer and not requiring that retailers provide 
safety information about the products. The result is that nearly one-
third of the sales to consumers in 2007 will be by manufacturers who do 
not offer the consumer the training which riders should complete to 
safely use these products. While this impacts Minnesota manufacturers, 
the biggest concern is for consumers who have the right to expect that 
all ATVs sold in this country meet a minimum safety standard. Sales of 
ATVs that do not meet minimum safety standards will hurt the consumer 
and ultimately the entire ATV industry.
    Last year, the CPSC initiated a rulemaking proceeding that will 
eventually lead to a new standard governing the safety of ATVs. 
However, the new standard may not be finalized for several years. In 
the interim, the new entrants will continue to sell products to 
American consumers that do not meet the established industry's 
voluntary product standard and do not contain all of the safety 
information or free safety training.
    As I stated last year, the existing regulatory regime is broken and 
must be fixed. All ATV manufacturers should be bound by the same 
standards and oversight. Adopting legislation which codifies the ANSI 
standard as a baseline until the CPSC adopts a more comprehensive 
standard is critically needed and long overdue.
    With respect to the ANSI standard setting process, in the next few 
weeks, ANSI will publish a new standard that not only will contain the 
existing requirements for brakes, suspension and many other design, 
configuration and performance aspects of ATVs, but also will include 
requirements for on-product labels, operator's manuals, hang tags and 
compliance certification labels. These additional provisions include 
important ATV safety information which would be required to be provided 
with each ATV. This new standard is more comprehensive than the current 
standard, and compliance by all manufacturers with the new standard 
will result in safer products for consumers.
    In closing, thank you for your leadership on this most important 
consumer safety issue. I look forward to working with you on this 
matter in the weeks and months ahead.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
